No. 19-518
In the

Supreme Court of the United States
___________

COLORADO DEPARTMENT OF STATE,
Petitioner,
v.
MICHEAL BACA, POLLY BACA, AND ROBERT NEMANICH,
Respondents.

CERTIFICATE OF SERVICE
PHILIP J. WEISER
Attorney General
ERIC R. OLSON
Solicitor General
Counsel of Record
GRANT T. SULLIVAN
Assistant Solicitor General

Office of the Colorado
Attorney General
1300 Broadway
Denver, Colorado 80203
(720) 508-6000
Eric.Olson@coag.gov

I, Eric R. Olson, counsel for Petitioner, certify that on April 1, 2020, I
caused one copy of the Motion for Leave to Dispense with Preparation of a Joint
Appendix to be served by first-class mail and email on the counsel below. I
further certify that all parties required to be served have been served.
L. Lawrence Lessig
Equal Citizens
12 Eliot Street
Cambridge, MA 02138
(617) 496-1124
lessig@law.harvard.edu

Dated April 1, 2020.
PHILIP J. WEISER
Attorney General of Colorado
/s/ Eric R. Olson
ERIC R. OLSON
Solicitor General
Counsel of Record
GRANT T. SULLIVAN
Assistant Solicitor General
1300 Broadway
Denver, Colorado 80203
Telephone: 720-508-6000
Email: Eric.Olson@coag.gov
Counsel for Petitioner Colorado Department
of State

2

